Department of Homeland Security
   Ofﬁce of Inspector General

            U.S. Secret Service’s Information 
 

            Technology Modernization Effort 
 


                       (Redacted)
 





OIG-11-56                                    March 2011
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                 MAR 152011



                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment
to the Inspector General Act 0/1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the information technology
modernization for the U.S. Secret Service. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                   ~r#
 

                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................5 
 


     IIT Program Modernization Approach ..........................................................................5 
 


     IIT Program Communication Approach ......................................................................11 
 


     IIT Program Governance Approach.............................................................................12 
 


     Recommendations........................................................................................................16
 


     Management Comments and OIG Analysis ................................................................17 
 



Appendices
     Appendix A: Purpose, Scope, and Methodology ........................................................20 
 


     Appendix B: Management Comments to the Draft Report ........................................22 
 


     Appendix C: Major Contributors to This Report........................................................29 
 


     Appendix D: Report Distribution................................................................................30 
 



Abbreviations
     AD                  Acquisition Directive          

     APMD                Acquisition Program Management Division 

     CIO                 Chief Information Officer 

     DHS                 Department of Homeland Security 

     ERB                 Executive Review Board

     FY                  fiscal year          

     IGC                 Investment Governance Council             

     IIT                 Information Integration and Transformation 

     IRM                 Information Resources Management Division 

     IT                  information technology             

     MD                  Management Directive             

     OCIO                Office of the Chief Information Officer 

     OIG                 Office of Inspector General 

     OPR                 Office of Protective Research

     POA&M               Plan of Action and Milestones 

Table of Contents/Abbreviations
Figures

  Figure 1: Secret Service Organizational Structure........................................................2 


  Figure 2: Office of Protective Research Organizational Structure ...............................3 


  Figure 3: IIT Program Capability Areas .......................................................................4 


  Figure 4: Secret Service IT Strategic Plan Goals……………………………………..6

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  We audited the U.S. Secret Service’s Information Integration and
                  Transformation Program. Our objective was to determine whether
                  the U.S. Secret Service’s information technology modernization
                  approach is effective in supporting its protective and investigative
                  missions, goals, and objectives.

                  The U.S. Secret Service has made progress in implementing its
                  modernization program, but faces challenges to reach its stated
                  objectives. Although it has an Information Technology Strategic
                  Plan, it did not update the plan to guide its modernization program,
                  address its system weaknesses, or integrate with DHS’ technology
                  direction. The U.S. Secret Service also did not sufficiently report
                  and track system weaknesses because of limited staff. With
                  insufficient staff, the initial modernization program schedule was
                  not realistic. The U.S. Secret Service is addressing these issues by
                  obtaining additional staff and adjusting its program schedule.

                  The U.S. Secret Service has implemented a communication
                  approach for the modernization program. As a result, its
                  leadership, management, and staff were involved in the
                  transformation, which should help ensure the program’s success.
                  In addition, the U.S. Secret Service implemented an internal
                  governance approach for the program, establishing guidance to
                  align mission needs and resources. However, it did not implement
                  a formal department-level investment governance mechanism to
                  provide integrated feedback and direction for the transformation
                  program effort. To address this challenge, it created an Executive
                  Steering Committee with members from the U.S. Secret Service
                  and the department. The U.S. Secret Service can further improve
                  its modernization approach by strengthening its Chief Information
                  Officer’s information technology investment authority.

                  We are recommending that the U.S. Secret Service develop an
                  information technology staffing plan, formalize the Executive
                  Steering Committee, and provide its Chief Information Officer with
                  agency-wide information technology budget and investment review
                  authority.


             U.S. Secret Service’s Information Technology Modernization Effort

                                          Page 1
Background
                           The U.S. Secret Service became part of the Department of
                           Homeland Security (DHS) with the passage of the Homeland
                           Security Act of 2002. 1 Created in 1865 as a bureau of the
                           Department of the Treasury, the Secret Service’s sole mission was
                           to suppress the counterfeiting of U.S. currency. In 1901, the
                           agency was asked to begin its protective mission after the
                           assassination of President William McKinley.

                           The Secret Service has the dual protective-investigative mission of
                           safeguarding the Nation’s financial infrastructure, including the
                           integrity of the Nation’s currency, and protecting the Nation’s
                           leaders, visiting heads of state and government, designated sites
                           and National Special Security Events. The protective mission
                           includes a wide array of activities related to identifying threats,
                           mitigating vulnerabilities and creating secure environments for
                           protectees. The investigative mission includes enforcing U.S. laws
                           pertaining to financial, computer, and electronic crimes.

                           To accomplish its mission, the Secret Service has more than 6,700
                           employees in more than 150 offices worldwide. Figure 1 shows a
                           simplified version of the Secret Service organizational structure.



                                                                                      Director
                                                                                  -------------------­
                                                                                  -------------------­
                                                                                    --------------­
                                                                                       Deputy
                                                                                      Director
                                                                            Chief of
                                                                            Counsel

                                              Office of       Office of                           Office of
                              Office of     Government        Human         Office of           Operational      Office of       Office of    Office of
                            Administratio                    Resources                          Intelligence    Professional    Protective   Protective
                                                And
                                  n                             and       Investigations            and        Responsibility   Operations   Research
                                            Public Affairs    Training                          Information




                           Figure 1: Secret Service Organizational Structure

                           The Office of Protective Research (OPR) directly supports the dual
                           protective-investigative mission of the Secret Service. Within
                           OPR, the Chief Information Officer (CIO) Office and the
                           Information Resources Management Division (IRM) provide


1
    Public Law 107-296, Homeland Security Act of 2002, November 25, 2002.



                      U.S. Secret Service’s Information Technology Modernization Effort

                                                             Page 2
     agency-wide information technology (IT) support. Figure 2 shows
     the organizational structure of OPR.




                                            OPR
                                         ASSISTANT
                                         DIRECTOR




       Deputy Assistant                                             Deputy Assistant
           Director                                                    Director
        Threat Analysis                                               Technology




     Protective Intelligence                         Information Resources
                               Technical Security                                  IIT Program      Chief Information
              and                                         Management
                                   Division                                     Management Office        Officer
          Assessment                                        Division
            Division




     Figure 2: Office of Protective Research Organizational Structure

     The CIO Office oversees IT solutions and services in support of
     the Secret Service’s dual mission. Within the CIO Office, the
     primary role of the CIO is to provide the Director and senior staff
     with the overall strategic leadership, direction, advice, and
     assistance concerning the Secret Service’s IT programs. IRM
     personnel develop, provide, and manage IT to support the
     investigative and protective operations and associated
     administrative functions of the agency.

     Secret Service IT Modernization

     The Secret Service is modernizing its IT because of challenges
     with the existing environment. Forty-two applications supporting
     the dual mission were operating on a 1980s IBM mainframe with a
     68% performance reliability rating. The existing infrastructure
     does not meet current operational requirements and is unable to
     share common DHS enterprise services, such as those provided by
     the department’s Consolidated Data Centers.

     Due to the Secret Service’s dated infrastructure, its networks, data
     systems, applications, and system security do not meet operational
     requirements. The Secret Service identified specific IT capability
     gaps associated with three key areas: network security, information
     sharing and situational awareness, and operational
     communications. The Secret Service IT environment was assessed



U.S. Secret Service’s Information Technology Modernization Effort

                                        Page 3
     in 2007 and 2008, and a number of network and IT system
     vulnerabilities were identified that need remediation to protect
     Secret Service systems and electronic information.

     The Secret Service planned a significant IT modernization and
     transformation program effort to address its assessment
     recommendations and replace its existing network and
     communications capabilities. The Information Integration and
     Transformation (IIT) Program is the Secret Service’s main effort
     of IT modernization. The IIT Program consists of four program
     capability areas: Enabling Capabilities, Communications
     Capabilities, Control Capabilities, and Mission Support
     Capabilities. Figure 3 shows the four IIT Program capability areas.

        Enabling Capabilities                             Communications Capabilities
        • IT Infrastructure Modernization                • Communications Interoperability
        • Database Architecture                          • Internet Protocol
        • Cyber Security                                  Communications Convergence
        • Information Assurance
        • Data Center Consolidation
                                            IIT Program
                                          Capability Areas Mission Support Capabilities
        Control Capabilities                                  • Threat Management
        • Cross Domain Application –                       • Protective & Investigative
          Multi Level Security                               Technologies
        • Access Control                                   • Human Resources & Training
        • Electronic Records Management                      Modernization

          System
                                          • Enterprise Logistics
                                                             Management & Operations
                                                           • Enterprise Business Support

     Figure 3: IIT Program Capability Areas


     Within the IIT Program, the Enabling Capabilities projects will
     provide increased bandwidth, increased security measures to
     protect Secret Service IT, and overall faster and more reliable IT
     system performance. The Communications Capabilities projects,
     which began in fiscal year (FY) 2009, will provide technology to
     improve access to controlled or classified information via Internet-
     based devices to ensure reliable and consistent coverage, especially
     while in transit or mobile environments. The Control Capabilities
     projects will control access to the various technologies used to
     meet protective mission requirements. Finally, the Mission
     Support Capabilities projects will provide operational and business
     applications to support the Secret Service mission. If funding is
     provided as anticipated, these IIT projects should be completed by
     2016.




U.S. Secret Service’s Information Technology Modernization Effort

                                 Page 4
                 The IIT Program’s total estimated cost is $1.5 billion. In FY 2009,
                 the Secret Service received approximately $32 million, which was
                 used for the White House Communications Agency,
                 Interoperability, Access Control, and Enterprise Logistics
                 Management and Operations. The Congress appropriated
                 approximately $34 million for FY 2010 for the IIT Program’s
                 Enabling Capabilities and Control Capabilities projects. The
                 Secret Service has requested $187 million for the IIT Program in
                 FY 2011.

                 In November 2009, the DHS CIO reviewed the IIT Program and
                 identified risks with planning, staffing, and governance.
                 Specifically, the DHS CIO determined that the Secret Service did
                 not have an appropriate planning approach for the IIT Program and
                 that the program schedule was “over-aggressive.” In addition, the
                 Secret Service did not have a properly structured and staffed
                 Program Management Office. The DHS CIO also identified
                 concerns with the Secret Service governance process as a
                 mechanism for timely and balanced decision making.

                 The DHS CIO proposed corresponding mitigation strategies for the
                 identified risks. Specifically, the DHS CIO recommended that the
                 Secret Service restructure the program’s schedule to address only
                 the highest priority tasks; create a traditional program management
                 office structure with a full-time program manager and direct
                 reporting relationships for the key program elements, including
                 requirements management, systems engineering, acquisition
                 support, business and financial management, program control, and
                 testing and implementation; and establish one governance board,
                 co-chaired by a business executive and the senior IT official, to
                 oversee the IIT Program. During our fieldwork, the Secret Service
                 was taking steps to address the risks identified by the DHS CIO.

Results of Audit

     IIT Program Modernization Approach
                 Initial plans, activities, staffing, and schedule did not fully support
                 IIT Program needs. For example, the Secret Service has not
                 updated its IT Strategic Plan to reflect and guide its modernization
                 efforts, address identified IT weaknesses, or integrate its IT with
                 the DHS-wide enterprise infrastructure. In addition, the Secret
                 Service has not sufficiently reported its IT weaknesses or tracked
                 its actions to address the weaknesses as they did not have enough


            U.S. Secret Service’s Information Technology Modernization Effort

                                         Page 5
                           staff to perform these activities effectively. Given the limited staff,
                           the initial IIT Program schedule was not realistic. Without
                           adequate planning and sufficient resources, the Secret Service
                           cannot ensure timely delivery of IT services in support of its
                           missions. To address these issues, the Secret Service has increased
                           its efforts to obtain additional staff and adjusted its IIT Program
                           schedule to focus on a few key efforts, such as stabilizing the
                           current IT environment and conducting a study and analysis of the
                           alternative IT solutions.

                           Planning Documentation

                           The Government Performance and Results Act of 1993 holds
                           federal agencies responsible for strategic planning to ensure
                           efficient and effective operations and use of resources to achieve
                           mission results. In addition, federal guidance states that the
                           strategic plan shall be updated and revised at least every 3 years. 2
                           The plan should clearly define how IT supports an agency’s
                           mission and drives investment decisions, guiding the agency
                           toward its goals and priorities.

                           IT Strategic Plan

                           The Secret Service has not updated its IT Strategic Plan since
                           developing it in 2006. The plan covers FYs 2007 through 2011
                           and includes the Secret Service’s IT goals within four technology
                           domains: information, technology, process, and governance.
                           These four goals are presented in Figure 4.




                           Figure 4: Secret Service IT Strategic Plan Goals




2
    Public Law 103-62, Government Performance and Results Act of 1993, August 3, 1993.



                      U.S. Secret Service’s Information Technology Modernization Effort

                                                   Page 6
     The plan establishes objectives to accomplish the four goals. For
     example, to accomplish the technology goal, the plan includes
     objectives to modernize the IT infrastructure to provide robust,
     reliable, and cost-effective services to meet the current and future
     needs of the Secret Service; to facilitate an agile, mobile
     workforce; to develop and implement policies and procedures for
     more timely and more accurate identification of support
     requirements for National Special Security Events and
     investigative activities; and to expand and upgrade applications,
     services, network, storage, and server capacity to meet growing
     needs. To accomplish the governance goal, the plan has objectives
     to institutionalize enterprise-wide IT planning and architecture and
     use IT as an enabler to drive business process improvement; to
     establish enterprise-wide governance for investment management,
     oversight, and accountability; and to institute results-based IT
     performance measurement, management, and reporting.

     Because the Secret Service has not updated its IT Strategic Plan
     since 2006, the document does not accurately reflect planned IIT
     Program activities. The Secret Service’s IT Strategic Plan contains
     a timeline for completion of major activities, including the
     transformation of planning and process improvement by FY 2007,
     upgrades to technology platforms by FY 2008, and creation of
     technical architectures to support multiple levels of classified
     content by FY 2009. The IIT Program schedule, however, shows
     that these activities have yet to be addressed. In addition, the IT
     Strategic Plan does not address the system vulnerabilities identified
     during an assessment previously conducted, which was an impetus
     for the IIT Program. Specifically, the plan does not contain
     objectives or strategies that describe how the Secret Service will
     address and mitigate these vulnerabilities to meet its IT goal of
     providing accurate, comprehensive, secure, and on-demand
     information.

     Further, while the plan addresses the need to consider department
     and government-wide enterprise IT solutions, the plan does not
     describe how the Secret Service will leverage specific DHS
     enterprise-wide solutions such as DHS Consolidated Data Centers
     and OneNet. These enterprise-wide solutions are part of the
     department’s effort to save costs and consolidate its IT
     infrastructure. Through the OneNet network transformation, DHS
     will transition components to a single, enterprise-wide, integrated
     IT network. DHS is also consolidating existing systems, data, and
     hardware to two enterprise Consolidated Data Centers. To meet
     the department’s IT strategic objectives for achieving data center


U.S. Secret Service’s Information Technology Modernization Effort

                             Page 7
                          consolidation and network consolidation, the Secret Service must
                          leverage these solutions to the maximum extent possible.

                          IT Systems Reporting and Tracking Activities

                          The Federal Information Security Management Act requires each
                          federal agency to develop, document, and implement an agency-
                          wide security program. 3 The agency’s security program should
                          protect the information and the information systems that support
                          the operations and assets of the agency, including those provided
                          or managed by another agency, contractor, or other source. To
                          comply with this act, DHS components are required to create and
                          maintain plans of action and milestones (POA&M) for all known
                          IT security weaknesses.

                          The Secret Service has not performed mandatory IT systems
                          vulnerability reporting and tracking activities. Specifically, the
                          Secret Service did not update information on system vulnerabilities
                          in DHS’ enterprise management tool as required. 4 For example,
                          the Secret Service did not prepare the POA&Ms needed to address
                          the vulnerabilities identified as part of its IT assessment. The
                          Secret Service Chief Information Security Officer told us that none
                          of the 50 identified vulnerabilities was addressed through the
                          POA&M process.

                          The Secret Service also did not update information on internal
                          systems vulnerabilities documentation. Initially, upon receiving
                          the preliminary recommendations from the IT assessment, the
                          Secret Service created a spreadsheet containing recommendations
                          to resolve existing IT systems vulnerabilities, which were then
                          assessed for cost to implement. The Secret Service, however, did
                          not maintain this documentation to track the recommendations and
                          ensure that the associated systems vulnerabilities were resolved.
                          As a result, Secret Service Information System Security Officers
                          were unable to rely on the existing out-of-date documentation
                          describing system vulnerabilities. Instead, these officers engaged
                          the cyber security project manager to learn about current,
                          applicable system issues.



3
  Public Law 107-347, Sections 301-305, Title III of the E-Government Act of 2002, Federal Information 
 

Security Management Act (FISMA) of 2002, December 17, 2002. 
 

4
  Department of Homeland Security Management Directive DHS 4300A, Sensitive Systems Handbook,
 

Attachment H, Plan of Action and Milestones (POA&M) Process Guide, October 1, 2009.
 




                     U.S. Secret Service’s Information Technology Modernization Effort

                                                  Page 8
     Staffing Challenges

     The Secret Service did not update its IT Strategic Plan or report
     and track previously identified IT systems weaknesses because of
     limited staff. Secret Service program officials stated that their
     ability to hire staff is hindered by the background check process
     required for employment. Potential hires have taken other jobs
     while waiting for clearance or, in some cases, the potential hires
     have not obtained clearances.

     In addition, as of July 2010, more than 50% of staff within the IIT
     Program were not fully dedicated to the IIT Program. IIT program
     officials stated that they have to perform their day-to-day
     operational duties concurrently with their IIT Program duties. For
     example, at the time of our fieldwork, the IIT Program Manager
     also served as the Deputy Chief of IRM. One IIT program official
     stated that insufficient, dedicated staff resulted in the need to
     prioritize ongoing activities and adjust the schedule for carrying
     out IIT Program projects. In addition to day-to-day operational
     duties, National Special Security Events designated by the
     President or the Secretary of DHS also periodically interrupted
     work on the IIT Program. For example, an IIT program official
     was put in charge of communications for the heads of state at the
     2010 Nuclear Summit.

     Secret Service CIO Office personnel also have operated with
     limited staff and have had to contend with high turnover. The CIO
     Office was operating with four personnel including the Acting
     CIO, which represents approximately 44% of the office’s
     authorized positions. In addition, a senior IT official told us that
     the role of the CIO had changed. Specifically, the CIO had
     previously served as both the IRM Chief and the CIO. Based on
     the results of an internal inspection report, the Secret Service
     determined that the CIO should not serve in both capacities.
     Therefore, the CIO role was separated from the IRM Chief role,
     with the intent for the CIO to have increased visibility among
     senior management and be able to implement IT policy and
     guidance more effectively.

     IIT Program Schedule

     Given the insufficient number of staff, the initial IIT Program
     schedule was not realistic. For example, in FY 2010, IIT program
     management initially planned to begin multiple activities to
     address gaps in three of the IIT program’s capability areas,


U.S. Secret Service’s Information Technology Modernization Effort

                             Page 9
     Enabling Capabilities, Control Capabilities, and Mission Support
     Capabilities, while continuing work that was begun in FY 2009 in
     the fourth capability area—Communications—to address voice and
     data interoperability gaps with external organizations. In FY 2011,
     IIT program management planned to begin additional activities to
     address gaps in the administration of protective intelligence and
     investigative case data, including protective and intelligence threat
     management, protective threat investigation, financial and
     electronic crimes investigation, and forensic and investigative
     technologies, as well as begin to address gaps in human resources
     and training.

     As recommended by the DHS CIO, IIT program management has
     recently restructured the scope and schedule of the IIT Program by
     significantly reducing the planned activities. The revised schedule
     focuses on first stabilizing the IT infrastructure and provides for a
     study and analysis period to ensure consideration of DHS
     enterprise solutions. Communications Capability project activities
     will continue as originally planned.

     IIT program officials developed an aggressive schedule for the IIT
     Program due, in part, to the pressure to complete multiple IIT
     Program activities before the 2012 presidential campaign.
     Specifically, the Acting CIO stated that IIT program management
     wanted to make sure that Secret Service IT was ready for the 2012
     presidential campaign. In addition, a program official stated that
     the Secret Service does not upgrade a system in a critical election
     year, and that the agency has time windows in which to implement
     changes. Further, IT staff may be sent on the road during a
     campaign, which would reduce the amount of resources at
     headquarters to implement the IIT Program.

     Without effective planning and sufficient resources, IIT program
     management cannot ensure timely delivery of mission IT services
     in direct support of the Secret Service’s mission, goals, and
     objectives. As previously discussed, IIT program management
     restructured the scope and schedule based on the DHS CIO’s
     recommendation. The IIT Program then faced further delays on
     the revised program activities due to difficulty with the initial
     attempt to provide a single provider for both IT stabilization and
     the Analysis of Alternatives study. The IIT Program Manager
     stated that the schedule impact would not be fully known until the
     contracting actions and delivery schedules were identified.




U.S. Secret Service’s Information Technology Modernization Effort

                            Page 10
                        In addition, not having an up-to-date IT strategic plan may have
                        led to delays in ensuring alignment with DHS enterprise solutions.
                        For example, through updating the planning documentation, the
                        Secret Service may have identified challenges with alignment with
                        DHS enterprise solutions at an earlier stage in program planning,
                        which may have contributed to a more realistic schedule and
                        mitigated program delays. Also, not keeping system vulnerability
                        documentation up to date has resulted in IIT program staff not
                        having the information needed to make decisions on program
                        priorities.

                        IIT program management has taken action to address these issues.
                        In March 2010, the DHS CIO reported to the Congress that the
                        Secret Service and DHS OCIO have been engaged in ongoing
                        discussions regarding the department’s data center consolidation
                        effort, and that the IIT Program is aligned with the DHS Enterprise
                        Architecture process. To resolve staffing shortages, IIT program
                        management brought in outside experts and additional staff to
                        assist with IIT Program projects. For example, four intelligence
                        subject matter experts from the Joint Duty Assignments Program
                        have been detailed to the Secret Service for 12 months. In
                        addition, IIT program management hired dedicated staff for
                        acquisition management, systems engineering, business and
                        financial management, and program control and integration. In
                        June 2010, the Secret Service hired contractors to support the
                        POA&Ms tracking process. A CIO official stated that, in July
                        2010, the IIT Program received funding for a contractor to update
                        the Secret Service IT Strategic Plan. In addition, the Secret
                        Service has taken actions to address its staffing shortages. For
                        example, an individual has been selected for the Secret Service
                        CIO position and was going through background investigation. IIT
                        program staff in other areas, however, were still taking on multiple
                        responsibilities.

        IIT Program Communication Approach
                        According to DHS Management Directive (MD) 0007.1, IT
                        integration and management requires strong communication. 5 The
                        Secret Service has implemented a comprehensive communication
                        approach for the IIT Program. Secret Service leadership,
                        management, and staff are aware of the importance of the IIT
                        Program and communicate frequently about the effort.

5
 Department of Homeland Security Management Directive 0007.1, IT Integration and Management,
March 15, 2007.



                   U.S. Secret Service’s Information Technology Modernization Effort

                                               Page 11
            Specifically, to ensure effective communication, the Director’s
            Chief of Staff holds weekly IT coordination meetings attended by
            representatives from multiple Secret Service offices. At these
            meetings IIT program management and staff provide updates on
            the status of the IIT Program, which is discussed along with other
            Secret Service programs. These meetings are held in addition to
            the IIT Program’s frequent internal communications and meetings.

            In addition, the Chief of Staff chairs the IIT Communications
            Committee, which created a communication plan to inform internal
            Secret Service stakeholders about the IIT Program. In addition to
            representation from the Office of the Director, the committee
            comprises personnel from various Secret Service offices, including
            staff from protective research, human resources and training,
            government and public affairs, administration, acquisition policy
            and communication, procurement, budget, professional
            responsibility, protective operations, and investigations. The IIT
            Program communication plan was designed to present an
            integrated approach to communication and engagement in support
            of the IIT Program.

            These communication efforts have been successful, in part,
            because Secret Service management has actively encouraged
            participation and involvement in the IIT Program. Secret Service
            stakeholders stated that communication about the IIT Program is
            frequent, and that leadership and management are supportive of the
            IIT Program. Furthermore, management supported staff
            attendance from across Secret Service directorates at an off-site
            retreat in May 2010 to help inform the IIT Program about the
            agency’s business processes. IIT program officials also stated they
            received support for the IIT Program from the Director of the
            Secret Service. The Secret Service leadership, management, and
            staff participation and involvement in the IIT Program should help
            ensure the success of the IIT Program.

IIT Program Governance Approach
            An effective IT governance approach should address component-
            level as well as department-level direction. The Secret Service has
            implemented an internal governance approach for the IIT Program
            by establishing internal governance policies and procedures to
            ensure alignment between mission needs and resources and to
            provide recommendations for IT investments. The Secret Service,
            however, did not implement an effective external IT governance



       U.S. Secret Service’s Information Technology Modernization Effort

                                   Page 12
                          approach. Specifically, the agency did not have a formal
                          department-level IT governance mechanism to provide integrated
                          feedback and direction for the transformation program effort. To
                          address this challenge, the Secret Service has recently created an
                          Executive Steering Committee with members from the Secret
                          Service and the department, as recommended by the DHS CIO. In
                          addition, the Secret Service did not position its CIO with the
                          necessary authority to review and approve IT investments.

                          IT Investment Governance Approach

                          According to DHS guidance, acquisitions with an estimated life
                          cycle cost of $1 billion or more, such as the IIT Program, are
                          subject to department, as well as component, review and approval
                          requirements. 6 According to federal guidance, the CIO is required
                          to implement IT governance structures and to ensure effective
                          acquisition of IT resources. 7 Additionally, according to DHS MD
                          0007.1, the component CIO is responsible for the effective
                          management and administration of all IT resources and assets by
                          reviewing and approving IT acquisitions in accordance with DHS
                          policies and guidance. 8

                          Internal IT Investment Governance

                          The Secret Service has implemented an internal IT investment
                          governance approach for the IIT Program. Specifically, the Secret
                          Service established internal governance policies, procedures, and
                          review boards that ensure alignment between mission needs and
                          resources, review and assess IT investments, and provide decision
                          recommendations for IT investments. To support investment
                          governance, the Secret Service implemented several directives to
                          ensure that investments support the requirements identified within
                          the agency’s strategic plan. 9

                          IIT program management met the requirement to review the IIT
                          Program through the Investment Governance Council (IGC). In

6
  DHS AD 102-01, Version 1.9, Acquisition Directive, November 7, 2008, and Revision 01, Acquisition 
 

Management Directive, January 20, 2010.

7
  The Clinger-Cohen Act of 1996; Office of Management and Budget Circular A-130, Management of
 

Federal Information Resources; and Office of Management and Budget Circular A-11, Part 7, Planning, 
 

Budgeting, Acquisition and Management of Capital Assets provide regulations and guidance for investment 
 

review and capital planning activities. 

8
  DHS MD 0007.1, IT Integration and Management, March 15, 2007.
 

9
  U.S. Secret Service ADM-05(01), Secret Service Investment Governance, October 6, 2008, and U.S. 
 

Secret Service ADM-05(02), Investment Governance – Information Technology, October 6, 2008.
 




                    U.S. Secret Service’s Information Technology Modernization Effort 


                                                 Page 13 

     FY 2008, the Secret Service implemented the IGC to provide the
     business-level review of significant Secret Service investments in
     IT and other critical functions. The IGC is the second level
     governing body and advisory council to the Executive Review
     Board (ERB). The IGC oversees three committees including the
     Information Technology Review Committee, which performs
     reviews and provides decision support information. The IGC is
     composed of Deputy Assistant Director-level representatives from
     each Assistant Director’s office and the Office of Chief Counsel,
     as well as advisory officials and subject matter experts.

     Similarly, the Secret Service ensured that the IIT Program was
     reviewed by the ERB. The ERB is the highest level governing
     body with the final decision authority and responsibility for
     investment governance within the Secret Service. The objectives
     of the ERB include ensuring that resources are effectively
     managed throughout the agency, that all Secret Service
     organizations have a voice in the decision-making process, and that
     these decisions best meet agency needs. ERB membership
     includes the Deputy Director, all Assistant Directors, the Chief
     Counsel, and the Chief of the Secret Service Uniformed Division.
     Once the requirements and investment are approved by the ERB
     and included in the Secret Service’s Budget Request to DHS, the
     Office of Management and Budget, and the Congress, then
     program staff may begin to develop the program documents
     required by DHS Acquisition Directive 102-01.

     In addition, the IIT Program Manager began performing Program
     Management Reviews internally four to seven times a month
     starting in April 2010. The purpose of the Program Management
     Reviews is to review the status of IIT Program projects, assess
     project execution, and provide strategic direction on cross-cutting
     issues. In the reviews, each IIT Program project manager is
     responsible for advising the IIT Program Manager and the CIO of
     the project status. Following each review, the IIT Program
     Manager and CIO provide a memorandum to the corresponding
     IIT Program project manager. The memorandum includes action
     items, such as meeting with project stakeholders, updating
     information on identified risks, and providing budget estimates,
     which are then tracked by IIT program management and followed
     up on in subsequent reviews.




U.S. Secret Service’s Information Technology Modernization Effort 


                             Page 14 

     External IT Investment Governance

     Although the Secret Service developed internal governance
     organizations, policies, and procedures, the agency did not
     establish an effective external IT governance approach.
     Specifically, the Secret Service did not have a formal, department-
     level IT governance mechanism to provide integrated feedback and
     direction for its transformation program effort. Without a formal
     mechanism for integrated governance, the Secret Service reached
     out individually to DHS offices and received conflicting advice. In
     addition, the Secret Service did not sufficiently consider DHS
     enterprise-wide solutions, such as Consolidated Data Centers and
     OneNet.

     Initially, the Secret Service contacted representatives from the
     DHS Acquisition Program Management Division (APMD) and
     received advice on how to acquire IT services and equipment.
     APMD representatives advised that multiple phases of the IIT
     Program could be pursued at the same time. Following this advice,
     IIT Program representatives began planning to acquire IT
     equipment and contracting services. Subsequently, the DHS CIO
     reviewed the IIT program plan and found that it was too large in
     scope, particularly considering the limited staff available. Based
     on this review, the DHS CIO recommended that IIT program
     management first focus on stabilizing Secret Service’s IT and
     perform a more robust Analysis of Alternatives to leverage DHS
     enterprise solutions effectively. APMD officials agreed with the
     DHS CIO’s suggested, revised acquisition strategy. The Secret
     Service presented the revised acquisition strategy to the DHS
     Acquisition Review Board, and in March 2010, the IIT Program
     was approved to begin the next acquisition phase, which included
     awarding a contract to stabilize the current IT infrastructure and to
     perform a study to provide input to an Analysis of Alternatives.

     Based on the DHS CIO’s recommendation, the Secret Service
     created an Executive Steering Committee with members not only
     from the Secret Service, but also from the department to increase
     transparency and governance of the IIT Program. Members of the
     committee include the DHS CIO, the DHS Acting Chief
     Procurement Officer, and senior Secret Service officials.

     CIO IT Investment Authority

     DHS MD 0007.1 identifies the component CIO as the senior-most
     federal executive in the component with the responsibility for


U.S. Secret Service’s Information Technology Modernization Effort

                            Page 15
                           exercising leadership and authority over mission-unique IT
                           policies, programs, services, solutions, and resources. 10 In
                           addition, the component CIO has the unilateral authority to
                           determine IT investments and act to implement the policies of the
                           DHS CIO. However, at the Secret Service, the CIO is not well
                           positioned as a member of the Director’s management team and
                           therefore does not play a significant role in overseeing IT systems
                           development and acquisition efforts.

                           As discussed previously, it was the DHS CIO who helped redirect
                           the modernization program from an unnecessarily risky approach
                           and schedule. Based on DHS MD 0007.1, the Secret Service’s
                           CIO should be in the best position to provide the necessary IT
                           leadership and guidance to support the IIT Program. As such, the
                           CIO needs the IT decision authority and exceptional access to
                           senior leadership within Secret Service and the department to
                           guide effectively the Secret Service IT investments. Combined
                           with the newly created Executive Steering Committee, a strongly
                           positioned Secret Service CIO should help ensure that IT solutions
                           selected during the IIT Program provide the most benefit for the
                           Secret Service and align to the department’s long-term IT vision of
                           cost savings and infrastructure consolidation.

           Recommendations
                           We recommend that the Deputy Director, U.S. Secret Service:

                           Recommendation #1: Develop an IT staffing plan that includes
                           specific actions and milestones for dedicated staff to implement the
                           IIT Program, to create effective planning documentation, and to
                           track system vulnerabilities.

                           Recommendation #2: Formalize the Executive Steering
                           Committee by finalizing the charter and setting up a schedule of
                           monthly meetings to provide recommendations; to mature the
                           mission and vision, strategies, and policies for the IIT Program;
                           and to ensure that the IIT Program is in alignment with the Secret
                           Service and DHS strategic goals and objectives.

                           Recommendation #3: Provide the CIO with agency-wide IT
                           budget and investment review authority to ensure that IT initiatives
                           and decisions support accomplishment of Secret Service and
                           department-wide mission objectives.
10
     DHS MD 0007.1, IT Integration and Management, March 15, 2007.



                      U.S. Secret Service’s Information Technology Modernization Effort

                                                  Page 16
Management Comments and OIG Analysis
           We obtained written comments on a draft of this report from the
           Assistant Director, Office of Professional Responsibility. We have
           included a copy of the comments in its entirety in Appendix B.

           The Assistant Director disagreed with the findings and
           recommendations from the report, stating that the report does not
           meet the objectives of the audit and that it disregards the details of
           the actions taken and the necessary management decisions made to
           staff and resource the IIT program while continuing to execute IT
           operations. Also, the Assistant Director stated that the report
           disregards the collaboration and coordination between the Secret
           Service and the department.

           Our audit objective was to determine whether the U.S. Secret
           Service’s IT modernization approach is effective in supporting its
           protective and investigative missions, goals, and objectives. The
           report highlights actions that the Secret Service has taken to
           address many of the initial planning issues. The report also
           describes the actions taken, in collaboration with the DHS CIO, to
           increase transparency and effective governance of the
           modernization program. We revised the report to address Secret
           Service’s concerns over our statement that initial modernization
           program planning was not sufficient to support the IIT Program.
           Instead, we state that initial plans, activities, staffing, and schedule
           did not fully support IIT Program needs.

           The Assistant Director provided detailed comments in response to
           each of the findings and recommendations of the report, as well as
           a list of specific comments to exclude information from the report.
           We have reviewed management’s comments and made changes to
           the report as appropriate. The following is our evaluation of the
           issues raised by the Assistant Director, grouped in line with our
           report recommendations.

           Recommendations

           In response to recommendation one, the Assistant Director stated
           that the recommendation mischaracterizes the IIT planning and
           staffing activities underway and cited a staffing plan that the Secret
           Service provided to the DHS CIO, as well as the DHS CIO’s Letter
           to the Congress indicating that the Secret Service staffing plans
           were addressed appropriately. The Assistant Director also said
           that, although efforts are underway to hire personnel, some of the


      U.S. Secret Service’s Information Technology Modernization Effort

                                  Page 17
     CIO staff and IIT Program Management Office positions required
     for the IT Modernization program remain unfilled.

     We do not agree that Secret Service’s staffing plans are adequate
     to support the IIT Program. During our fieldwork, IIT program
     management told us that insufficient staffing hindered Secret
     Service’s ability to perform critical activities, such as updating the
     IT Strategic Plan to reflect the IIT program’s direction and tracking
     of IT system vulnerabilities. Further, Secret Service’s November
     2009 presentation to the DHS CIO showed that, although
     recruitment of staff was underway, there was limited PMO staff in
     place. The DHS CIO’s March 2010 report to the Congress
     indicated that Secret Service had a plan for acquiring needed
     program management staff. However, the plan did not contain
     specific “actions and milestones” for acquiring these dedicated
     staff. Without a plan containing specific actions and milestones
     for filling required positions timely, there is no assurance that
     sufficient and qualified staff will be in place to complete critical
     transformation activities.

     In response to recommendation two, the Assistant Director stated
     that the recommendation mischaracterizes the Secret Service’s
     ongoing governance and oversight efforts. Such efforts include the
     initiation of an internal IIT Program Steering Committee and an
     Executive Steering Committee. The Assistant Director said that
     Executive Steering Committee meetings have been scheduled and
     held and a draft charter for the committee was provided to the DHS
     CIO on June 3, 2010. The Secret Service is waiting for the DHS
     CIO to concur with the charter.

     As stated in the Secret Service’s response, it appears that the Secret
     Service’s Executive Steering Committee has been meeting, and
     that steps have been taken to finalize the committee’s charter. We
     recognize, and are encouraged by, these actions and look forward
     to the charter’s finalization.

     In response to recommendation three, the Assistant Director stated
     that the recommendation conflicts with the existing authorities of
     the Secret Service Director, citing Public Law 109-177 which
     states that “…no personnel and operational elements of the United
     States Secret Service shall report to an individual other than the
     Director.” Also, the Assistant Director stated that the
     recommendation for the Secret Service CIO to directly report to
     the DHS CIO appears to be the premise under which this audit was
     initiated.


U.S. Secret Service’s Information Technology Modernization Effort

                            Page 18
     We agree that Public Law 109-177 exempts the Secret Service’s
     CIO from having a “direct reporting relationship” with the DHS
     CIO and have adjusted this recommendation accordingly. The
     intent of the recommendation is to ensure that the Secret Service
     and DHS CIOs develop and maintain an effective working
     relationship to ensure ongoing alignment of their respective
     mission goals and objectives. We are encouraged by the Assistant
     Director’s statement that the Secret Service CIO should have a
     professional and collaborative relationship with the DHS CIO.
     However, we maintain that the Secret Service CIO should have the
     agency-wide IT budget and investment authority necessary to
     ensure that IT initiatives and decisions support the accomplishment
     of Secret Service and department-wide mission objectives.




U.S. Secret Service’s Information Technology Modernization Effort 


                             Page 19 

Appendix A
Purpose, Scope, and Methodology


                       We conducted an audit of the Secret Service’s IIT Modernization
                       Program. Our objective was to determine whether the Secret
                       Service’s IT modernization approach is effective in supporting its
                       protective and investigative missions, goals, and objectives.

                       We researched and reviewed federal laws and executive guidance
                       related to DHS IT acquisitions and acquisition management. We
                       reviewed prior Government Accountability Office and OIG reports
                       to identify findings and recommendations. We reviewed publicly
                       available information about the Secret Service’s IT modernization
                       effort. Using this information, we designed a data collection
                       approach for our review, consisting of focused interviews and
                       document analysis. We developed a series of questions and
                       discussion topics for our interviews.

                       Subsequently, we met with individuals at Secret Service
                       headquarters and gathered supporting documentation to meet our
                       audit objectives. We met with the IIT Program Manager and Secret
                       Service Acting CIO to obtain information about the agency’s IT
                       modernization efforts and supporting organizational structure. We
                       also met with IRM and CIO office leadership, IIT Program project
                       managers, and personnel to learn about the efforts to plan,
                       communicate, and manage the IIT Program. Where possible, we
                       obtained reports and other materials to support the information
                       provided during the meetings. In addition, we met with select
                       division chiefs, assistant division chiefs, and Special Agents in
                       Charge from across the agency to discuss their roles and
                       responsibilities related to the IIT Program. Secret Service
                       personnel discussed accomplishments and challenges in
                       implementing the IIT Program, as well as their involvement with the
                       modernization effort. We collected numerous documents from
                       these officials about IIT accomplishments, current initiatives, and
                       future plans.

                       In addition, we met with the DHS CIO, senior DHS OCIO
                       officials, the APMD Director, and APMD officials to discuss their
                       involvement with the IIT Program. We were particularly
                       interested in IIT Program planning and governance. DHS OCIO
                       officials provided copies of documentation regarding the IIT
                       Program.

                       We conducted our audit from March to August 2010. We
                       performed our work according to generally accepted government
                       auditing standards. Those standards require that we plan and


                  U.S. Secret Service’s Information Technology Modernization Effort

                                              Page 20
Appendix A
Purpose, Scope, and Methodology


                       perform the audit to obtain sufficient appropriate evidence to
                       provide a reasonable basis for our findings and conclusions based
                       on our audit objectives. We believe that the evidence obtained
                       provides a reasonable basis for our findings and conclusions, based
                       on our audit objectives.

                       The principal OIG points of contact for this audit are Frank Deffer,
                       Assistant Inspector General for Information Technology Audits,
                       and Richard Harsche, Director, Information Management Division.
                       Major OIG contributors to the audit are identified in Appendix C.




                  U.S. Secret Service’s Information Technology Modernization Effort 


                                               Page 21 

Appendix B
Management Comments to the Draft Report




                                    u.s. Department of HomelandSeeurity
                                   UNITED STATES SECRET SERVICE

                                                    November 19, 2010


               MEMORANDUM FOR: Frank Deffer
                                         Assistant Inspector General for Information TechnologyAudits

               FROM:                    . George P. Luczko     N.-c,-L ~
                                          Assistant Director, Office of~rofessfonal Responsibility
                                         U.S. Secret Service

               SUBJECT:                  Draft orG Report No. 1O-119-ITA-DSSS


               The attached is the U. S. Secret Service formal response to the Draft OIG Report No. 10-
               119-ITA-USSS, Regarding the Information Technology ModerniZation Effort.




               Attachments

               cc: Rafae:l Borras, Under Secretary Management
                   Robert C. West, Chief Information Security Officer




                  U.S. Secret Service’s Information Technology Modernization Effort
 


                                                      Page 22
 

Appendix B
Management Comments to the Draft Report




                                        U.S. Department of Homeland Security
                                       UNITED STATES SECRET SERVICE


                                                      November 19,2010


             To:     Frank Deffer
                     Assistant Inspector General for Information Technology Audits

             Re:     DIG Project No.1 O-119-ITA-USSS, Draft Report - U. S. Secret Service's Information
                     Technology Modernization Effort


             Dear Mr. Deffer,

             I.      Introduction:

             The United States Secret Service (USSS) appreciates the opportunity to review and comment on the
             subject draft report. The objective of the OIG l-eview was to "determine whether the USSS IT
             modernization approach is effective in si.lpporting its protective and investigative mission, goals and
             objectives." After thorough review, the USSS contends that the draft report fails to meet the objective and
             appropriately account for and acknowledge the totality of circumstances during the "stand-up" oftne lIT
             program and the sequence of actions required. Furthermore, the draft repc,H1; disregards the details of the
             actions taken and the necessary management decisions made to staff a~d resource the lIT program while
             continuing to execute IT operations in the existing USSS mission environment. Additionally, the draft
             report disregards the collaboration and coordination between the USSS and DHS to which the DHS CIO
             acknowledges.

             II.     Context:

             Modernization of our infrastructure' is an essential element to ensure successful future USSS operations.
             Dedicated planning has'been underWay since 2006 and began concurrent with the drafting of the 2007-
             20 It USSS IT Strategic Plan. Since 2007, considerable effort regarding resourcing has been expended in
             coordination with the offices of the Undersecretary for Management (USM) and Chieflnformation
             Officer (CIO) at the Department of Homeland SeclII'ity, and with the Office of Management and Budget
             (OMB) and Congressional staffs. The first lIT Program budget was provided via supplemental
             appropriation in FY 2009 and a dedicated lIT 'program office and program were established in 20.1 0, The
             DHS Deputy Secretary reviewed and approved the lIT Program in February 2, 2010 and the DHS CIO
             provided a special report to Congress dated March 2, 2010 detailing the planning and governance
             conducted to that point, and that USSS plans were'consistent with DHS enterprise architecture and data
             center migration plans,

             Regarding the specifics of the draft report, the USSS is disappointed that the extent of reviews and formal
             decision meetings executed by the USSS appears to have been 'disregarded in the draft report.
             Furthermore, the report fails to acknowledge the ongoing efforts and specific direction provided by DHS
             leadership and the USSS lIT Program team critical to the continuing development of the program and
             accompanying programmatics. For example, DHS, acquisition policy' for IT systems requires substantial
             effort be completed -pl'iorto program approval and initiation by the Deputy Secretary. For this reason,
             the USSS does not agree that program planning was "ineffective" to support the lIT program.


                                                                  1




                    U.S. Secret Service’s Information Technology Modernization Effort
 


                                                            Page 23
 

Appendix B
Management Comments to the Draft Report




             In fact, the USSS submits that lIT program planning was duly diligent and appropriate given the early
             phase ofprogram development.

             The draft report's recommendation regarding a "direct reporting" relationship b~tween the USSS CIO and
             DHS CIa conflicts with"Title 18 USC 3056 Subsection (g) (Public Law 109·177) which clearly and
             specifically states that "no personnel and o'perational elements of the United States Secret Service shall
             report to an individual other than the Director of the Secre~ Service." Likewise, the recommendation is
             inconsistent with the existing authorities of the Director of the Secret Service in DHS Management
             Directive MD 0007.1. It is our position that this "direct report" point itself appears to be the premise _
             under which this audit was initiated. The USSS acknowledges that a professional and collaborative
             relationship is' essential between the USSS CIa and the DRS CIO to ensure complimentary departmental
             alignment, but also that the USSS CIO is bound by USSS mission equities to ensure that the USSS. its
             special agents. and its Uniformed Division officers are supported with the most effective and efficient
             information technology possible; optimized for the unique mission challenges ofthe USSS. As such, the
             U.SSS CIO has been well positioned within the Agency's leadership framework to ensure that IT
             initiatives and decisions align and support accomplishment of both USSS and DRS mission objectives.
             Finally, it is our position that the collaborative coordination has and does exist at several levels between
             the USSS and DRS in regard to the lIT program.

             IV.     Recommendations: .

             Recommendation 1: Develop an IT staffing plan that includes specific actions and miles/ones for
             dedicated staffto implement the IFF Program, to create effective planning documentation, and to track
             system vulnerabilities.     "                                     "
             NON..cONCURRENCE, The recommendation mischaracteriies tbe lIT planning and staffing activity
             that was underway. In response to a Program Review with the DHS CIa on November 24. 2009 the
             USSS provided a staffing plan to the pHS CIa on December 18, 2009 addressing his concerns. The
             DRS CIO Letter to Congress dated March 2, 2010 indicated that USSS staffing plans were addressed
             appropriately.

            The USSS identified ten CIa staff positions and fifteen fiT Program Management Office (FMO)
            positions necessary to support and manage the IT Modernization program and acquisition requirements:
            seven eIO staff positions and eight PMO positions have been filled representing the key IT systems and
            project managers, system engineers and financial analysts positions; one CIO staff and four PMO
            positions are pending security clearances with projected hire dates in December 2010. The final two CIa
            staff and three PMO positions are being addressed in the USSS hiring" process.

            It should be noted that from May 2009, CIa and PMO positions were filled using experienced Federal
            Joint Duty Assignment (IDA) staff and contracted IT acquisition professional services pending arrival of
            perm'anent FfEs. The USSS was able to'leverage senior IT program management and acquisition experts
            from                 to support its program planning.

            Recommendation 2: Formalize the Executive Steering Committee byfinaliZing the charter and setting up
            a schedule ofmonthly meetings to prOVide recommendations; to mature. the mission one! vision, strategies,
            andpolicies for the IFF Program,' and to ensure that the lIT Program is in alignment with the Secret
            Service and DBS strategic goals and objectives.




----------------~-~-----~----------
                                                                 2




                    U.S. Secret Service’s Information Technology Modernization Effort
 


                                                            Page 24
 

Appendix B
Management Comments to the Draft Report




            NON-CONCURRENCE. The recommendation mischaracterizes the ongoing efforts at USSS in
            governance and oversight The USSS initiated an intemalllT Program Steering Committee in October
            2009, chaired by the USSS Chief of Staff (C~) to ensure that the fiT Program meets USSS mission
            requirements, eddresses critical IT wlnerabilities. and is in alignment with the Secret Service and DRS
            strategic goals and objectives. The lIT Program Steering Committee ·consists of representatives from
            each Assistant Director's office to ensure communications and coordination of the IT Modernization
            efforts.

            In March 20 I0, the DHS CIO requested the formation of an Executiv~ Steering Committee (ESC)..
            Currently implemented. the ESC includes USSS Senior Management and DHS members from the offices
            of the CIO. the CbiefProcurement Officer, and the Acquisition. Plannin& and Management Directorate
            (APMD). to enhance their awareness of the USSS ITT Program and its alignment with DRS goals.


            Since April 20 I 0, the USSS has scheduled and hosted an ExeCutive Steering Committee meeting every
            6th week. to address at a senior level. a myriad of nT Program actiyities to include DRS IT governance,
            enterprise services, budget, and acquisition planning. The next ESC is scheduled for December 9, 2010:
            It should be noted the USSS and DRS CIO have already discussed and reviewed a written Executive
            Steering Cqmmittee charter. The latest USSS draft provided on June 3, 2010 remains .at DRS CIO
            awaiting concurrence.

            Recommendation 3: Provide the C/O wfth agenc~wide IT budget and investment review authority and a
            direct reporting relationship with the DBS CIO to ensure that IT initiatives ,anddecisions support
            accomplishment ofSecret Service and department-wide mission objectives.

            NON·CONCURRENCB. We contend that this recommendation conflicts with the oxisting authorities of
            the USSS Director and is inconsistent with DHS Management Directive MD 0007.1 and Title 18 USC
            3056 Subsection (g) (public Law 109·177) which states that "no personnel and operation~1 elements of
            the United States Secret Service shall report to an individual other than the Director." The USSS
            acknowledges that a professional relationship is essential between the USSS CIO and the DHS CIO to
            ensure complimentary departmental alignment but also that the USSS CIO is bound by USSS mission
            equities to ensure that the USSS, its special agents and its.Unifonned Division officers are supported with
            the most effective and efficient information technology possible. optimized for the unique mission
            challenges of the USSS. As such. the USSS cro has been well positioned with," the USSS's leadership
            to ensure that IT initiatives and decisions align and support accomplishment of both USSS and DHS
            mission objectives.

            V.      Conclusion:

            In summary, the USSS does not concur with the recommendations and several sections of the draft report.
            Further. its release in its current context would be inappropriate and misleading. We welcome the
            opportunity to discuss details of tho planning conducted by both USSS and DHS officials and address
            specific recommendations contained in the draft report.        .

            VI.     Addendum:

            Specific comments on sections of the draft report and a list of key events with DRS, USM. ClO. APMD
            specific to planning, dating back to 2006 are provided below.




                                                                3




                    U.S. Secret Service’s Information Technology Modernization Effort
 


                                                            Page 25
 

Appendix B
Management Comments to the Draft Report




            Page 5 of the report states: "mitial planning was not sufficient to support the llT Program. The Secret
            Service has not updated its IT Strategic·Plan to reflect and guide its modernization efforts, address
            identified IT weaknesses, or integrate its IT with the DHS-wide enterprise infrastruc~re.»

            USSS Position: The.USSS strongly objects to this· language and proposes that it be stricken. The USSS
            IT Strategic Plan is currently being updated to'cover the period 2011 - 2016. The plan will address goals,
            objectives and integration with DHS- Enterprise Wide Infrastructure initiatives as well as ensure
            organizational consistency with the DHS IT Strategic Plan which covers the· period 2009 - 20 t3. The
            execution strategies contained in the current USSS plan were used to guide the ·initial planning for the lIT
            modernization efforts.

            Page 7 of the report states: "Further, while the (USSS IT Strategic Plan) addresses the need to ccinsider
            department and government-wide enterprise, IT solutioll,s, the plan doe,s not describe how the Secret
            Service will leverage specific DRS enterprise-wide solutions such as DHS consolidated data centers and
            OneNet."                                                                                              .

            USgS Position: The USSS disagrees with the reports characterization. A planned update of the USSS IT
            Strategic Plan is currently underway for 20"1 l·and will include DHS enterprise services. DHS enterprise-
            wide solutions have been coordinated and reviewed with the DHS CIO and·are included in the llT
            program ·planning.

             1. Many ofthe DHS enterprise services cited in the 010 report were developed by DRS during the 2008
                - 2010 timeframe, but not to the degree that woUld require an immediate revision to the USSS IT .
                Strategic Plan.
             2, The DIG draft report fails to acknowledge the USSS agreement with DHS CIO regarding migration to
                the consolidated data centers (July 2009 MOD) and planning the transition to OneNet (July through
                December 2009). The DHS CIO identified funding beginning i.n FY 2011 for USSS transition to data
                centers as agreed to in the July 2009 MOU, and transition to OneNet begirming in January 20.1 I.
            .3. The DHS CIO is aware ofthe USSS concerns that OneNet fails to comply with Federal Infonnation
                Processing Standards (FIPS) as required by the Office of Management and Budget, and lacks
                contracting fle~ibility to quickly deploy IT circuits necessary to support USSS protective operations
                throughout the USA.
             4, The DIG was provided documentation describing the USSS mission impacts and transition planning
                a,ctivities relative to DHS enterprise services (Consolidated Data Centers and OneNet).
                          a: The USSS liT program recogniZed the enterprise~wide requirements and addressed those
                               needs in· the program planning documentation and in the contract requirements for the IT
                               modernization program.                            . .                     . .
                          b. The statement of objectives (SOO) for the IT modernization program (dated in 2009)
                               outlines the mission needs and objectives of the infrastruqture capability by including the
                               following statement: "One ofilie overarching objectives oflIT Block 1 is to prepare for
                               movement to DHS OneNet and migration to the DHS Data Centers, In support oftbese
                              .objectives. an assessment of DHS OneNet services that the USSS could leverage is a high
                               priority, Specific OneNet leveraging may include, but is not limited to, DHS Security
                               Operations Center connectivity. Global Address List connectivity, and archiving aDd.
                               backup capability."




                                                                  4




                     U.S. Secret Service’s Information Technology Modernization Effort
 


                                                             Page 26
 

Appendix B
Management Comments to the Draft Report




     ·'   .'   , .



                     Page 8 of the report states: "The Federal Information Security Management Act (FISMA) requires each.
                     federal agency to develop,.document, and implement an agency wide security program..... Specifically,
                     the Secret S~ice did not update information on system vulnerabilities in DHS's enterprise management
                     tool as required     To comply with this act, DHS components are required to create and maintain plans
                     of actjon and milestones (POA&M) for aU known IT security weaknesses."

                     USSS Position: The USSS disagrees with the draft report's characterization. Although the USSS did· not
                     use the "Trusted Agent-FISMA" (TAF) format to document the" assessment findings at the time of
                     the assessment, the findings were prioritized, evaluated, documented, addressed and reviewed with DIlS
                     counterp!\rts. Of the known system vulnerabilities," some have been resolved and others are planned to "be
                     addrC!ised under the IT modernization program.            .            .


                     1. The USSS currently uses the DHS enterprise management tool·Trusted Agent-FISMA (TAF) to
                          document USSS system vulnerabilities.
                     2. The USSS did not use the DHS management tool to document the flDdings ofthe"Blue Team
                          report (Classified Secret). The USSS conducted a thorough review of the findings and created
                          internal documentation to prioritize, address, and develop proactive mitigation strategies. The'"
                          internal information was sbared internally with multiple stakeholders to include the CIO, CISO,
                          Information Resource Management Division program managers and lA program specialists.
                     3, In collaboration with DRS cIa and APMD, the USSS developed mitigation strategies that were
                          included in the lIT program planning process. Although some system vulnerabilities have been
                        . resolved, many others are scheduled to be addressed within the IT modernization effort. IT system
                          vulnerabilities are continuously reviewed by USSS CISO and IA program specialists.

                     Page 10 of the report states: "As recommended by the DHS CIa, ITT program management has recently
                     restnJc~ the scope and schedule of the lIT Program by significantly reducing the planned activities."


                     USSS Position: The USSS does not concur. The USSS bas been planning the IT modemization program
                     since 2007 to address critical mission requirements. Further. insufficient budget submissions from DRS
                     and OMB impeded our ability to implement the program as originally intended. The DHS CIa's direction·
                     to perform an Analysis of Alternatives (AoA) has impacted the schedule although the original scope
                     remains intact and unchanged. Resultant (Jelays may eventually lead to cost and operational mission
                     impacts.

                     1, The DHS CIa directed at a program briefing on November 24, 2009 that an AoA be conducted
                        although in March 2010 endorsed the program by (,:crtifying release of funds for 2010.
                     2. The USSS had planned for an Alternatives Analysis, as previously presented to DHS OCIO and
                        APMD staff, which was to be conducted during the initial phase of the IT modernization effort. As a
                        resultofDHS CIa direction. limited FY 2010 funding was redirected to perform the AoA in lieu of
                        the Alternatives Analysis and the procurement of hardware to stabilize existing dated systems
                        awaiting modemization.




                                                                         5




                             U.S. Secret Service’s Information Technology Modernization Effort
 


                                                                    Page 27
 

Appendix B
Management Comments to the Draft Report




            TIT Program Initiation - Key Events


            The below listed key ITT program, events were either unknown or dismissed by the OIG audit team. They
            document coordination between the USSS and DHS as well as provide a chronology of consistent
            planning, tracking and communica~ion between the Secret Service, DHS and Capital Hill.
            a.    USSS IT Strategic Plan Approved (2007.2011)                                         08/0812006
            b.    "Initial Blue Team Briefmg / Report of Findings                                     1213012007
            c.    USSS 'Get Well' Plan to Address_Report                                              02/0412008
            d.    USSS ITT Program Briefings to Senate and House Appropriations Committees,
                  Subcommittee on Homeland Security, Professional Staff and the Senate Homeland
                  Security and Governmental Affairs Committee (Seven specific meetings)               Feb - Aug 2009
             e. USSS Preliminary Mission Needs Statement (lvINS) Approved                             0413012009
             f. DRS CIO I USSS CIa Agreement on Data Center Consolidation                             07/1512009
             g. DHS Acquisition Program Management Division (APMD) Program Brief                      08/1112009
             h. DHS APMD Program Strategy Review                                                      10/0112009
             i. DHS CIO Enterprise Architecture Center ofExcellence (BACOE) Review                    11/2312009
            j. DHS CIO Program Review                                                                 1112412009
            k. DHS cra Information Technology Acquisition Review (ITAR) Complete                      12114/2009
             1. . USSS Response to DHS CIO on Program Strategy, Staffing Plan & Governance            12/1812009
            m; DHS CIO EACOE Approval                                                                 0111112010
            n. DHS Acquisition Review Team (ART) Brief I Approval                                     0111512010
            o. DHS CIO Enterprise Architecture Board (EAB) Brief I Approval                           01119/2010
            p. DHS Acquisition Review Board (ARB) Brief(Deputy Secretary Chair)                       02/0212010
            q. DRS I USSS Executive Steering Committee (ESC) Initial Meeting                          02/0412010
            r. DHS ITAR Approval                                                                      03/0212010
            s. DRS CIO L.etter to Congress,... TIT Plaqs Approved                                     03/0212010
            t. DHS ARB Approval - Acquisition Decision Memo (ADM) Signed by USM                       03/2212010
            u. DBS Approval of lIT Acquisition Plan, Capability Development Plan & final MNS          0312212010
            v. DHS I USSS ESC Meeting with action item regarding funding shortfall                    0412912010
            w, USSS liT Status Update to Senate and House Appropriations Subcommittees                05/0512010
            x. Combined House Appropriations Committee and Senate Appropriations Committee
                  Briefing on; DRS IT Priorities and U.S. Secret Service IT Update. and U.S. Secret
                  Se,:"ice Information Integration and Transformation (liT) Program Status            05/0512010




                                                               6




                    U.S. Secret Service’s Information Technology Modernization Effort
 


                                                           Page 28
 

Appendix C
Major Contributors to This Report




                       Information Management Division

                       Richard Harsche, Director
                       Ernest Bender, Audit Manager
                       Elizabeth Argeris, Auditor-in-Charge
                       Sheila Cuevas, Auditor
                       Shannon Frenyea, Referencer




                  U.S. Secret Service’s Information Technology Modernization Effort

                                              Page 29
Appendix D
Report Distribution



                           Department of Homeland Security

                           Secretary
                           Deputy Secretary
                           Chief of Staff
                           Deputy Chief of Staff
                           General Counsel
                           Executive Secretariat
                           Director, GAO/OIG Liaison Office
                           U.S. Secret Service, Director
                           U.S. Secret Service, Assistant Director, Office of Protective
                           Research
                           U.S. Secret Service, Chief Information Officer
                           Assistant Secretary for Office of Policy
                           Assistant Secretary for Office of Public Affairs
                           Assistant Secretary for Office of Legislative Affairs

                           Office of Management and Budget

                           Chief, Homeland Security Branch
                           DHS OIG Budget Examiner

                           Congress

                           Congressional Oversight and Appropriations Committees, as
                           appropriate




                      U.S. Secret Service’s Information Technology Modernization Effort
 


                                                   Page 30
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
